                     Customer Service at the Taxpayer
                     Assistance Centers Is Improving
                    but Is Still Not Meeting Expectations

                                  December 2004

                       Reference Number: 2005-40-021




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                          December 28, 2004


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



      FROM:                   for Gordon C. Milbourn III
                              Assistant Inspector General for Audit
                              (Small Business and Corporate Programs)

      SUBJECT:                 Final Audit Report - Customer Service at the Taxpayer
                               Assistance Centers Is Improving but Is Still Not Meeting
                               Expectations (Audit # 200440033)


      This report presents the results of our review of customer service at the Internal
      Revenue Service’s (IRS) Taxpayer Assistance Centers (TAC). The overall objective of
      this review was to assess the progress the IRS has made in improving the quality of
      customer service provided at the TACs when answering tax law questions. The basis
      for our assessment is the audit work we conducted during the period January 2002
      through April 2004.
      The IRS is improving customer service for taxpayers that visit the TACs to ask tax law
      questions. For example:
      •    The TACs are easier to locate since the IRS ensures TAC addresses have been
           accurately posted to the IRS Internet, toll-free telephone numbers, and automated
           telephone systems.
      •    IRS employees provide assistance within 30 or fewer minutes and treat taxpayers
           courteously and professionally.
      •    The IRS is better at protecting taxpayers’ privacy when they visit the TACs for tax
           law assistance.
      However, more improvement is needed for the IRS to provide top-quality customer
      service at its TACs. The accuracy of responses to tax law questions increased by
      24 percent (from 54 to 67 percent) based on the body of work we completed during the
                                                      2

period January 2002 through April 2004.1 However, the IRS did not meet its 80 percent
accuracy goals for Fiscal Years (FY) 2003 and 2004 and experienced nominal
improvement in decreasing the number of incorrect responses given. The IRS
established the 80 percent accuracy goal for tax law questions for FYs 2003 and 2004
using our Calendar Year 2002 audit results as a baseline to measure improvements.
We believe the IRS will not achieve its accuracy goal if employees continue to answer
tax law questions without using the tools provided by IRS management to address
taxpayer questions and issues, and if the IRS does not implement an effective quality
review program. IRS employees are required to use the Publication Method Guide or
obtain the appropriate publication, discuss specific information related to the topic, ask
appropriate questions to obtain facts when assisting a taxpayer, and then respond to
the taxpayer’s issue or question. We found employees did not always use the tools
provided or ask questions sufficient to answer the taxpayers’ questions correctly. They
also answered questions they were not trained to answer.
The IRS also has not had a process in place to effectively measure the progress made
to improve customer service. The IRS has taken several actions to implement a quality
review program to identify ways to improve the accuracy and quality of services
provided at the TACs. In October 2001, the IRS hired an outside contractor to make
anonymous visits to the TACs to assess the quality of service being provided. In
October 2002, the IRS implemented a Quality Review Program for the TACs using
anonymous visits by IRS employees. Neither was able to provide reliable data.
Currently, the IRS is implementing a technology-based quality improvement program
that is part of an IRS-wide standard approach to improving quality and planning and is
designed to clearly link quality measures to both individual and corporate performance.
Since 2002, the IRS has taken numerous corrective actions to improve the accuracy
and quality of service at the TACs. However, the IRS still faces significant challenges to
provide top-quality customer service, including changing employee behavior, managing
the complexity of tax law, funding and implementing a reliable quality review program,
providing one-stop service, and obtaining adequate customer service feedback. Until
the IRS addresses these challenges, we do not believe it will be able to meet its goals.
We made recommendations to address these issues in prior reports; as a result, we are
not making any additional recommendations in this report.
Management’s Response: While IRS management appreciates our recognition of the
improved customer service in the TACs and the IRS’ efforts in attaining that
improvement, management continues to disagree with our method of reporting referrals
to publications and service not provided when computing the accuracy rate. Along with
this issue, IRS management does not agree with our conclusion that the IRS did not
meet its tax law accuracy goal and will continue to experience problems in doing so
unless some changes are made. They point out that the results of visits conducted by
IRS quality review staff and management shows that the IRS actually exceeded the
80 percent goal. Although the IRS sample was, like ours, not statistically valid, IRS

1
    Since the TACs visited were selected judgmentally, the results cannot be projected to all TACs.
                                           3

management believes the IRS results provide a better perspective due to the number of
visits compared to those we made in our tests.
Management’s complete response to the draft report is included as Appendix IV.
Office of Audit Comment: We continue to believe that when a taxpayer walks into a
TAC and asks a question, he or she expects to receive a correct response from the IRS.
While we acknowledge that accuracy has improved, we do not agree that the IRS has
achieved its accuracy rate goal of 80 percent. The IRS reported accuracy rates of
86 percent for the quality review visits and 93 percent for the manager visits are based
on two different methodologies, which we believe should not be used as a basis for
achieving the accuracy goal. While the IRS disagreed with how we calculated our
FY 2004 accuracy rate of 67 percent, it did use its own methodology to recalculate an
accuracy rate of 75 percent. The IRS used this figure as a baseline for measuring
employee improvement in tax law accuracy for FY 2005. We do not believe that the
IRS can state that it achieved its accuracy rate goal of 80 percent while using
75 percent as a baseline to measure improvements.
On page 2 of management’s response, the IRS disagreed that manager observation of
employees for evaluative purposes influences behavior. IRS management stated that
the volume of observations being conducted provides a reasonably reliable measure of
employee performance. However, the IRS’ internal documents providing support for
Contact Recording state, “… Currently, an IRS manager randomly monitors “live”
taxpayer contacts by physically standing next to the assistor, potentially altering the
dynamics…” and “… This physical presence establishes a superficial situation for both
the assistor and the customer and inhibits the accurate assessment of performance
in day-to-day contacts…” We agree that this bias will be eliminated once Contact
Recording is implemented.
The IRS believes its customer satisfaction survey ratings are not intended to measure
accuracy of tax law responses. However, we believe accuracy is a key component of
the taxpayers’ experience when visiting TACs to receive answers to their tax law
questions. Furthermore, the IRS’ weekly monitoring of office hours posted to IRS.gov or
provided through its toll-free telephone system will not identify if TAC hours posted at
the TACs are incorrect. During FY 2004, we reported that only 68 percent of the hours
posted at the TACs matched the hours made available to taxpayers.
Copies of this report are also being sent to the IRS managers affected by the
report results. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 927-0597.
                        Customer Service at the Taxpayer Assistance Centers
                          Is Improving but Is Still Not Meeting Expectations




                                              Table of Contents


Background ............................................................................................... Page 1
Customer Service Is Improving at the Taxpayer Assistance Centers........ Page 4
Program Results Did Not Meet Expectations ............................................ Page 5
Challenges Continue to Confront the Internal Revenue Service in
Meeting Program Goals ............................................................................ Page 9
Conclusion ................................................................................................ Page 12
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 16
Appendix III – Report Distribution List ...................................................... Page 17
Appendix IV – Management’s Response to the Draft Report .................... Page 18
             Customer Service at the Taxpayer Assistance Centers
               Is Improving but Is Still Not Meeting Expectations

                             Providing quality customer service is the Internal Revenue
Background
                             Service’s (IRS) first step to achieving taxpayer compliance.
                             One of the Congress’ principal objectives in enacting the
                             IRS Restructuring and Reform Act of 1998 (RRA 98)1 was
                             to mandate that the IRS do a better job of meeting the needs
                             of its customers. In the RRA 98, the Congress directed the
                             IRS to achieve a better balance between its postfiling
                             enforcement efforts and prefiling taxpayer assistance
                             through education and service. To comply with this
                             Congressional mandate, the IRS revised its mission
                             statement to refocus its emphasis on helping taxpayers
                             understand and meet their tax responsibilities.
                             As defined by the Treasury Inspector General for Tax
                             Administration (TIGTA), providing quality customer
                             service operations remains among the major management
                             challenges the IRS faces in Fiscal Year (FY) 2005. One of
                             the three goals in the IRS Strategic Plan 2005–2009 is to
                             improve customer service. To help achieve this goal, the
                             IRS plans to improve service options, facilitate
                             participation in the tax system by all sectors of the public,
                             and simplify the tax process.
                             Taxpayers have several options from which to choose when
                             they need assistance from the IRS, including face-to-face
                             assistance at the Taxpayer Assistance Centers (TAC),
                             telephone assistance through the toll-free telephone
                             numbers, and Internet access through the IRS web site,
                             IRS.gov. The complexity of tax law has made it even more
                             important that the IRS ensure these services are available to
                             all taxpayers.
                             The IRS is committed to providing top-quality service to
                             taxpayers, demonstrated by the IRS Field Assistance (FA)2
                             Office’s mission to minimize the burden to customers in
                             satisfying their tax obligations by providing the right
                             services at the right location at the right time. The
                             FA Office has overall responsibility for over 400 TACs in
                             5 geographical areas throughout the United States (U.S.).

                             1
                               Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                             sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                             23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                             2
                               The FA Office is a business unit within the Wage and Investment
                             Division Customer Assistance, Relationships, and Education function.
                                                                                             Page 1
Customer Service at the Taxpayer Assistance Centers
  Is Improving but Is Still Not Meeting Expectations

                To accomplish its mission, the FA Office provides
                professional assistance, education, and compliance services
                to customers that desire face-to-face interaction. IRS
                employees that work in the TACs assist customers by
                interpreting tax laws and regulations, preparing certain tax
                returns, resolving inquiries on taxpayer accounts, and
                providing various other services designed to minimize the
                burden on taxpayers in satisfying their tax obligations.
                Operating guidelines require IRS employees to identify
                themselves, provide their identification number either
                verbally or visually to all taxpayers, and assist taxpayers in a
                professional and courteous manner.
                According to the IRS, the TACs served approximately
                21.5 million taxpayers for the period January 2002 through
                April 2004. Approximately 4.4 million of these taxpayers
                visited the TACs for assistance with the tax laws.3 Figure 1
                shows the percentage of taxpayers assisted by employees in
                the TACs on the various services detailed above.
                              Figure 1: Percentages of Various Services
                              Provided by IRS Employees at the TACs

                                                                                   Pay
                                                                                   to
                                                             Account Information
                                                                                           $
                                                             7.2 million


                                      20%
                                                             Tax Law Questions
                                             13%             4.4 million

                    34%
                                                            Other 2.9 million
                                            24%
                               9%                            Tax Forms and
                                                              Publications
                                                             5.2 million




                        Tax Returns                Services Provided by TAC Employees
                        Prepared                             During the Period
                        1.8 Million                  January 2002 through April 2004

                Source: The IRS FA Office.


                3
                 The IRS provided the number of taxpayers that visited the TACs for
                assistance with the tax laws and the percentage of work shown in
                Figure 1. We did not verify the accuracy of the numbers.
                                                                                         Page 2
Customer Service at the Taxpayer Assistance Centers
  Is Improving but Is Still Not Meeting Expectations

                Because of the complexity of the tax law and the need to
                assist millions of taxpayers with tax law questions, TAC
                employees are not trained to answer all types of tax law
                questions. Instead, they are trained on specific tax topics
                and are authorized to answer only those questions within
                this expertise. These are called in-scope questions; they
                include specific tax law topics related to lines on the
                U.S. Individual Income Tax Return (Form 1040), such as
                income, filing status, exemptions, deductions, and credits.
                When a taxpayer walks into a TAC, he or she uses the
                Q-MATIC4 system to select the type of assistance desired
                (e.g., return preparation, tax law question, account inquiry,
                payment). In some larger TACs, an IRS employee called a
                screener determines the reason for a taxpayer’s visit and
                makes the Q-MATIC system choice for the taxpayer. Once
                a choice is made, the taxpayer is issued a number and waits
                for assistance until that number is called. Figure 2 shows an
                example of how this works for a taxpayer asking a tax law
                question.
                      Figure 2: Taxpayer Asking a Tax Law Question at a TAC

                    Taxpayer             Screener         Taxpayer
                    Enters the           Determines       Takes
                    TAC                  Tax Law          Number
                                         Issue




                          Assistor              Assistor Calls
                          Answers Tax           Taxpayer from
                          Law Question          the Queue




                Source: The IRS FA Office.



                4
                  The Q-MATIC system is an automated queuing system used to control
                the flow of taxpayers waiting for assistance.
                                                                            Page 3
                   Customer Service at the Taxpayer Assistance Centers
                     Is Improving but Is Still Not Meeting Expectations

                                   When assisting taxpayers, IRS employees must first
                                   determine if the tax law questions are in-scope. If the
                                   questions are in-scope, employees are generally required to
                                   use tax instructions, forms, and publications or the
                                   Publication Method Guide to provide the answers. The
                                   Guide is a tool to guide IRS employees through the complex
                                   maze of tax laws and computations.
                                   When receiving out-of-scope questions, IRS employees are
                                   required to offer to call the appropriate IRS toll-free
                                   telephone number on behalf of the taxpayers or to submit
                                   the questions in writing to subject-matter experts via
                                   IRS.gov (R-mail). Questions submitted via R-mail are
                                   assigned to employees, and taxpayers are to receive
                                   responses within 15 business days.
                                   Our assessment of the customer service at the TACs
                                   includes information derived from TIGTA audit reports
                                   issued during the period January 2002 through April 2004.
                                   We visited 471 TACs during this period and asked
                                   1,869 in-scope tax law questions. Since we judgmentally
                                   selected the TACs, the results cannot be projected to all
                                   TACs. Detailed information on our audit objective, scope,
                                   and methodology, including a list of previously issued
                                   reports, is presented in Appendix I. Each of the audits was
                                   conducted in accordance with Government Auditing
                                   Standards. Major contributors to the report are listed in
                                   Appendix II.
                                   The IRS has made progress in improving customer service
Customer Service Is Improving at
                                   for taxpayers that visit the TACs to ask tax law questions.
the Taxpayer Assistance Centers
                                   For example, the IRS is doing a better job ensuring the
                                   addresses for the TACs are accurately posted to IRS systems
                                   for access by IRS employees and taxpayers. The IRS is
                                   working to improve IRS.gov to make it easier for taxpayers
                                   to obtain the addresses for the TACs located in their states.5
                                   Taxpayers that do not have access to the Internet can call the
                                   IRS toll-free telephone numbers or automated telephone
                                   messaging system at a TAC to obtain this information.



                                   5
                                    More Could Be Done to Make It Easier for Taxpayers to Locate
                                   Taxpayer Assistance Centers (Reference Number 2004-40-075,
                                   dated March 2004).
                                                                                               Page 4
                   Customer Service at the Taxpayer Assistance Centers
                     Is Improving but Is Still Not Meeting Expectations

                                   When taxpayers visit the TACs to ask tax law questions,
                                   they generally have to wait 30 or fewer minutes before
                                   being served. IRS employees identify themselves as
                                   required and are courteous and professional when
                                   responding to taxpayers’ questions.
                                   The IRS has also taken steps to provide taxpayers more
                                   privacy when they visit the TACs. Since May 2002, the
                                   IRS requires IRS employees to ask taxpayers to write down
                                   their Social Security Numbers or Employer Identification
                                   Numbers rather than stating the numbers aloud. In addition,
                                   the IRS is in the process of redesigning the TACs to provide
                                   more privacy for taxpayers. Protecting taxpayer privacy is a
                                   very significant issue, and we believe the redesigned TAC
                                   layout will further improve taxpayer privacy.
                                   One of the IRS’ goals is to provide top-quality service to its
Program Results Did Not Meet
                                   customers. The IRS established an 80 percent accuracy goal
Expectations
                                   for tax law questions for FYs 2003 and 2004, using our
                                   Calendar Year (CY) 2002 results as a baseline to measure
                                   improvements. Although the accuracy rate has increased,
                                   the IRS did not meet its accuracy goals. Figure 3 shows the
                                   comparison of the IRS accuracy goals (80 percent for
                                   FYs 2003 and 2004) and accuracy rates for CYs 2002 and
                                   2003 and Filing Season 2004.6
                                       Figure 3: Comparison of Accuracy Goals and Accuracy Rates


                                        80%                            -------80 Percent Goal------
                                        70%
                                                                         70%
                                        60%                                                   67%

                                        50%         54%
                                        40%

                                        30%

                                        20%

                                        10%

                                         0%
                                              Calendar Year 2002   Calendar Year 2003   Filing Season 2004


                                   Source: IRS FA Office and TIGTA reviews conducted during the
                                   period January 2002 through April 2004.

                                   6
                                     The period from January through mid-April when most individual
                                   income tax returns are filed.
                                                                                                             Page 5
Customer Service at the Taxpayer Assistance Centers
  Is Improving but Is Still Not Meeting Expectations

                Based on the body of work we completed during the period
                January 2002 through April 2004, the tax law accuracy rate
                increased by 24 percent (from 54 to 67 percent). Figure 4
                compares the detailed results for CYs 2002 and 2003 and
                Filing Season 2004.
                                     Figure 4: Comparison of Accuracy Rates for
                                      CYs 2002 and 2003 and Filing Season 20047

                                      70%

                                      60%

                                      50%

                                      40%

                                      30%

                                      20%

                                       10%

                                        0%
                                             Co rrectly    Co rrectly   Inco rrectly   Inco rrectly
                                                                                                       Service No t
                                             Answered     Referred to   Answered       Referred to
                                                                                                        Pro vid ed
                                             Questio ns    To ll-Free   Questio ns     Pub licatio n

                    Calend ar Year 2 0 0 2      54 %          0%           2 7%            17%             1%
                    Calend ar Year 2 0 0 3      70 %          3%           22%              2%             3%
                    Filing Seaso n 2 0 0 4      6 7%          7%            2 1%            2%             3%

                Source: TIGTA reviews conducted during the period January 2002
                through April 2004.

                With the reduction of Referred to Publication responses,
                IRS employees provided correct responses to more
                questions. However, IRS employees experienced nominal
                improvement in decreasing the number of incorrect
                responses given.
                We believe the IRS will not achieve its accuracy goal if
                employees continue to answer tax law questions without
                using the tools provided by IRS management, and if the IRS
                does not implement an effective quality review program.

                7
                 The accuracy rates in the graph represent percentages and include
                “Correct” and “Correct but Incomplete” responses. Percentages may not
                add to 100 due to rounding. “Services Not Provided” occurred when the
                TAC was scheduled to be open but was closed when visited or the IRS
                employee did not answer the question because he or she was not
                qualified, did not have enough time since the TAC was closing soon, or
                was not available to answer the question.
                                                                                                        Page 6
Customer Service at the Taxpayer Assistance Centers
  Is Improving but Is Still Not Meeting Expectations

                Employees do not always follow existing procedures
                when responding to taxpayers’ tax law questions
                IRS employees are required to use the Publication Method
                Guide or obtain the appropriate publication, discuss specific
                information related to the topic, ask appropriate questions to
                obtain facts, and then respond to the taxpayer’s issue or
                question. During our reviews, IRS employees continued to
                answer tax law questions without asking all the probing
                questions outlined in the Publication Method Guide or using
                the tax instructions or publications. The risk that taxpayers
                will receive inaccurate answers is increased when IRS
                employees do not follow required procedures.
                Figure 5 shows the accuracy rates for tax law questions
                when IRS employees did and did not use tax instructions or
                publications when providing assistance to our auditors.
                         Figure 5: Responses to Questions for the Period
                                January 2002 Through April 2004




                      Source: Anonymous visits performed by TIGTA auditors.

                The IRS does not want employees in the TACs to answer
                tax law questions beyond their skill level or for which they
                have not been trained. This reduces employee assumptions
                and the risk that taxpayers will receive incorrect answers to
                their questions. Employees are not expected to be experts in
                all aspects of tax law. According to FA Office
                management, experienced employees are more likely to
                answer out-of-scope questions because they believe they
                know the correct answers and feel obligated to answer.
                                                                           Page 7
Customer Service at the Taxpayer Assistance Centers
  Is Improving but Is Still Not Meeting Expectations

                An effective quality review process is needed
                The IRS recognizes that it needs to implement an effective
                quality review process for its TACs. In October 2001, the
                IRS hired an outside contractor to assess the quality of
                service being provided in the TACs. Contracted employees
                anonymously visited the TACs and asked IRS employees
                two tax law questions. However, we expressed concerns
                with the contractor’s methodology for reporting the
                accuracy rate for questions asked by its employees. As a
                result of these concerns, the IRS terminated the contract.
                This again left the IRS with unreliable data to measure the
                quality of service being provided in its TACs.
                In October 2002, the IRS implemented a Quality Review
                Program for the TACs. The Quality Review Program was
                developed to identify ways to improve the accuracy and
                quality of services provided at the TACs. The Quality
                Review Program staff replaced contracted employees and
                completed anonymous visits to the TACs. At the request of
                the IRS, we reviewed the Program and determined that it did
                not have a process to provide accurate trending information.
                Currently, the IRS is implementing a technology-based
                quality improvement program called Embedded Quality
                Business Integration (EQBI). The EQBI is part of an
                IRS-wide standard approach to improving quality and
                planning and is designed to clearly link quality measures to
                both individual and corporate performance. In addition, the
                EQBI is designed to assist managers by integrating four
                technologies: Queuing Management, Contact Recording,
                Embedded Quality, and E-Performance Based Individual
                Training. IRS management believes the new program will
                ensure all managers are using the same methods of
                evaluation to establish baselines and identify root causes of
                defects in employees’ interactions with taxpayers.
                The first phase of the EQBI implementation is using
                manager observations to rate employee performance. The
                EQBI is designed only to measure employees’ face-to-face
                contacts with taxpayers. To monitor the performance of
                their employees, managers must be physically present when
                employees assist taxpayers. This physical presence
                establishes a superficial situation for both the assistor and
                the customer and inhibits the accurate assessment of
                                                                       Page 8
                   Customer Service at the Taxpayer Assistance Centers
                     Is Improving but Is Still Not Meeting Expectations

                                   performance in day-to-day contacts. The IRS acknowledges
                                   this process has biases but believes the number of
                                   observations will compensate for these limitations.
                                   However, the next phase of the EQBI includes
                                   implementing Contact Recording. Contact Recording takes
                                   the guesswork out of quality assessment. This automated
                                   system will record the conversation and will capture and
                                   synchronize the assistor’s computer screen activity, making
                                   the entire taxpayer interaction available for review and
                                   feedback. The system will also randomly select statistically
                                   valid samples of recorded contacts for quality review, which
                                   should provide a more accurate and consistent picture of the
                                   quality of work performed at the TACs. During FY 2005,
                                   we plan to review both the Embedded Quality and Contact
                                   Recording System technologies within the EQBI.
                                   Since 2002, the IRS has taken numerous corrective actions
Challenges Continue to Confront
                                   to improve the accuracy and quality of service provided at
the Internal Revenue Service in
                                   the TACs. However, the IRS still faces significant
Meeting Program Goals
                                   challenges to provide top-quality customer service. For
                                   example:
                                      •   Changing employee behavior.
                                      •   Managing the complexity of the tax law.
                                      •   Funding and implementing the EQBI.
                                      •   Providing one-stop service.
                                      •   Obtaining adequate customer service feedback.
                                   Meeting these challenges is essential for the IRS to
                                   successfully deliver quality customer service to taxpayers.
                                   Employee Behavior
                                   Accuracy goals will continue to be a challenge until IRS
                                   management is able to change employees’ behavior and
                                   ensure they follow required procedures when assisting
                                   taxpayers. IRS employees continue to answer tax law
                                   questions without asking all the required questions or using
                                   the Publication Method Guide and tax instructions or
                                   publications. This happens because IRS employees in the
                                   TACs stated the Guide was too cumbersome and diminished
                                   their credibility. Conversely, when the IRS implemented a

                                                                                         Page 9
Customer Service at the Taxpayer Assistance Centers
  Is Improving but Is Still Not Meeting Expectations

                zero tolerance policy for employees referring taxpayers to
                publications to obtain answers to their tax law questions, the
                number of referrals to publication responses decreased
                significantly.
                Complexity of the tax law
                The scope and the complexity of the U.S. tax code make it
                virtually certain that taxpayers will face procedural,
                technical, and bureaucratic challenges in meeting tax
                obligations. Although the IRS has consistently sought to
                ease the process for all taxpayers, each filing season brings
                new problems. In addition to the new tax laws, language
                barriers, interpretations of the law, and unclear IRS
                instructions contribute to the complexity issue.
                EBQI funding and implementation
                A third challenge the IRS faces is obtaining the funding
                needed to fully implement all four components of the EBQI
                at the TACs nationwide. The advances in technology will
                help the IRS capture and analyze interactions with
                customers, target improvement opportunities, and deliver
                better service. The IRS believes the integration of the four
                technology solutions will provide accurate quality measures
                and better ways of identifying opportunities for
                improvement. If adequate funding is not available for
                scheduled deployment of this project, the limitations in the
                current quality review process will remain. The IRS will
                not be able to effectively measure the accuracy of the full
                scope of its products.
                One-stop service
                The IRS is not able to provide one-stop service at its TACs.
                One goal of the IRS is to minimize the burden to customers
                in satisfying their tax obligations by providing the right
                services at the right location at the right time. IRS.gov
                states, “IRS Taxpayer Assistance Centers are your one-stop
                resource for face-to-face tax help and solutions to tax
                problems, every business day.” However, the IRS is not
                able to achieve its commitment to provide one-stop service
                or provide all the services taxpayers may expect.
                Because of the complexity of the tax law and the number of
                taxpayers the IRS serves, not all IRS employees can be
                                                                      Page 10
Customer Service at the Taxpayer Assistance Centers
  Is Improving but Is Still Not Meeting Expectations

                experts on all tax topics and provide all tax services.
                However, the IRS has not adequately educated taxpayers on
                what services are offered at the TACs, creating a burden for
                those taxpayers that visit a TAC asking questions on tax law
                topics that are outside the scope of expertise of the IRS
                employees present.
                In addition, based on our body of work, the IRS does not
                ensure office hours are current on its systems accessed via
                IRS.gov or the toll-free telephone numbers. This could
                require taxpayers to make multiple trips.
                Customer satisfaction feedback
                Obtaining sufficient customer feedback with which to
                appropriately measure customer satisfaction at the TACs has
                remained a challenge. The IRS developed Customer Survey
                Comment Cards to obtain feedback from taxpayers on the
                quality of service they received at the TACs. IRS
                employees are required to offer a Comment Card to every
                taxpayer who is provided face-to-face service.
                However, employees do not always follow these procedures.
                This reduces the effectiveness of the Customer Satisfaction
                Survey the IRS uses to measure the quality of service at the
                TACs. TIGTA auditors were offered Comment Cards only
                46 percent of the time when making anonymous visits to the
                TACs during the period July 2002 through April 2004.8 In
                addition, taxpayers completing the Comment Cards
                generally represented less than 4 percent of the total number
                of taxpayers that visited the TACs during this same period.
                While completing the survey is voluntary, IRS employees
                that do not follow procedures and offer taxpayers Comment
                Cards limit opportunities for a broader depiction of how
                satisfied taxpayers are with the quality of service provided
                at the TACs.
                Although the IRS received high ratings from taxpayers on
                the services provided at its TACs, these ratings do not
                capture the true perspective of the quality of service
                provided because taxpayers complete the survey without
                knowing whether they received accurate answers to their tax


                8
                  We did not capture Comment Card information during our visits for
                the period January through June 2002.
                                                                             Page 11
             Customer Service at the Taxpayer Assistance Centers
               Is Improving but Is Still Not Meeting Expectations

                             law questions or issues. Figure 6 shows the comparison of
                             taxpayer satisfaction rates and accuracy results from our
                             anonymous visits for CYs 2002 and 2003 and Filing
                             Season 2004.
                                Figure 6: Comparison of Taxpayer Satisfaction Rates and
                               Accuracy Rates for CYs 2002 and 2003 and Filing Season 2004

                                100%
                                 90%
                                 80%
                                 70%
                                                                                     Accuracy
                                 60%                                                   Rate
                                 50%
                                 40%
                                 30%
                                                                 Customer
                                 20%
                                                                Satisfaction
                                 10%
                                  0%
                                             2002              2003               2004

                                 Source: TIGTA reviews and IRS Customer Satisfaction Surveys
                                 conducted for the period January 2002 through April 2004.

                             One of the IRS’ FY 2005 major management challenges, as
Conclusion
                             defined by the TIGTA, is to provide quality customer
                             service operations. The IRS recognizes that the tax law
                             accuracy rate is inadequate and continues to take steps to
                             improve the quality and accuracy of the service its TACs
                             provide. The IRS has made progress in these efforts.
                             However, based on the IRS’ accuracy rates, we believe there
                             has not been enough improvement to consistently provide
                             accurate answers to taxpayers that visit the TACs. We also
                             believe implementation of the EQBI is a positive step in
                             establishing a standardized process to improve accuracy.
                             All taxpayers should receive accurate answers and quality
                             service when they visit the TACs. Taxpayers visit the
                             TACs to receive face-to-face service and assistance with the
                             tax laws. However, the burden on taxpayers is increased
                             when they rely on the IRS’ assistance to help them comply
                             with the tax law but are not provided correct responses to
                             their tax law questions.
                                                                                      Page 12
                      Customer Service at the Taxpayer Assistance Centers
                        Is Improving but Is Still Not Meeting Expectations

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the progress the Internal Revenue Service
(IRS) has made in improving the quality of service provided at Taxpayer Assistance Centers
(TAC) when answering tax law questions. The basis for our assessment is the audit work we
conducted during the period January 2002 through April 2004. To achieve this objective, we:
I. Determined if the IRS Field Assistance (FA) Office has met Congressional and taxpayer
   expectations to minimize the burden to taxpayers in satisfying their tax obligations by
   providing the right services at the right location at the right time.
    A. Researched the IRS Restructuring and Reform Act of 19981 and determined if the
       FA Office has taken steps to address Congressional concerns related to the quality of
       customer service provided in the TACs.
    B. Determined if the establishment of the TACs provides a better balance between the IRS’
       prefiling taxpayer assistance through education and service and postfiling enforcement
       efforts.
    C. Reviewed IRS filing season reports from the Government Accountability Office to
       identify improvements made at the TACs for Calendar Years 2002 and 2003.
II. Followed up on the IRS’ corrective actions taken based on the results and recommendations
    made in previously issued bimonthly and semiannual trend reports.
    A. Determined if corrective actions have been implemented.
    B. Determined if implemented actions have improved tax law accuracy and the quality of
       service provided in the TACs. Specifically, we reviewed actions addressing tax law
       accuracy, accommodations, and IRS employees’ adherence to FA Office operating
       guidelines and procedures.
    C. Determined the effect or impact from corrective actions not implemented.
III. Analyzed data gathered from the reviews conducted during the period January 2002 through
     April 2004 to determine if the IRS has made progress in improving the quality of customer
     service provided to individual taxpayers that visit the TACs. A list of the prior audit reports
     follows.




1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 13
                  Customer Service at the Taxpayer Assistance Centers
                    Is Improving but Is Still Not Meeting Expectations

Management Advisory Report: Taxpayers Continue to Receive Incorrect Answers to Some Tax
Law Questions (Reference Number 2002-40-086, dated April 2002).
Management Advisory Report: Taxpayers Continue to Receive Incorrect Answers to Some Tax
Law Questions (Reference Number 2002-40-113, dated June 2002).
Management Advisory Report: Progress Was Made to Provide Taxpayers With Correct Answers
to Tax Law Questions (Reference Number 2002-40-161, dated August 2002).
Trends in Customer Service in the Taxpayer Assistance Centers Show Procedural and Training
Causes for Inaccurate Answers to Tax Law Questions (Reference Number 2003-40-023,
dated November 2002). (Semiannual Report for January Through June 2002).
Taxpayers That Visited Taxpayer Assistance Centers in July and August 2002 Received Incorrect
Answers to Some Tax Law Questions (Reference Number 2003-40-024, dated November 2002).
Taxpayers That Visited Taxpayer Assistance Centers During September and October 2002
Received More Correct Answers to Tax Law Questions Than in Prior Months
(Reference Number 2003-40-040, dated December 2002).
Taxpayers That Visited Taxpayer Assistance Centers in November and December 2002 Received
Incorrect Answers to Some Tax Law Questions (Reference Number 2003-40-072,
dated March 2003).
Trends in Customer Service in the Taxpayer Assistance Centers Continue to Show Procedural
Causes for Inaccurate Answers to Tax Law Questions (Reference Number 2003-40-158,
dated August 2003).
Progress Was Made to Provide Taxpayers With Correct Answers to Tax Law Questions,
but Improvements Are Needed to Ensure Referral Procedures Are Followed
(Reference Number 2003-40-120, dated May 2003). (Semiannual Report for July Through
December 2002).
Taxpayer Assistance Center Employees Improved the Accuracy of Answers to Tax Law
Questions but Answered Some Questions Beyond Their Level of Training
(Reference Number 2003-40-157, dated July 2003).
Taxpayer Assistance Center Employees Continued to Improve the Accuracy of Answers to Tax
Law Questions During May and June 2003 (Reference Number 2003-40-198,
dated September 2003).
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions During
July and August 2003 Than Compared to One Year Ago (Reference Number 2004-40-024, dated
December 2003).
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions During
September and October 2003 Than Compared to One Year Ago (Reference
Number 2004-40-037, dated January 2004).


                                                                                     Page 14
                 Customer Service at the Taxpayer Assistance Centers
                   Is Improving but Is Still Not Meeting Expectations

Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions During
November and December 2003 Than Compared to One Year Ago (Reference
Number 2004-40-090, dated April 2004).
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved (Reference
Number 2004-40-152, dated September 2004).




                                                                                      Page 15
                  Customer Service at the Taxpayer Assistance Centers
                    Is Improving but Is Still Not Meeting Expectations

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Robert Baker, Lead Auditor
Andrea Hayes, Auditor
Sylvia Sloan-Copeland, Auditor




                                                                                         Page 16
                 Customer Service at the Taxpayer Assistance Centers
                   Is Improving but Is Still Not Meeting Expectations

                                                                               Appendix III


                                 Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 17
Customer Service at the Taxpayer Assistance Centers
  Is Improving but Is Still Not Meeting Expectations

                                                       Appendix IV


   Management’s Response to the Draft Report




                                                            Page 18
Customer Service at the Taxpayer Assistance Centers
  Is Improving but Is Still Not Meeting Expectations




                                                       Page 19
Customer Service at the Taxpayer Assistance Centers
  Is Improving but Is Still Not Meeting Expectations




                                                       Page 20
